                                                                 X-IN-MOA-0014-2003
                                                                      No. 2003-I-0004
            United States Department of the Interior
                            Office of Inspector General
                                 Washington, D.C. 20240




                                                                    November 15, 2002


Mr. Harvey D. Thorp
Assistant Inspector General for Audits
Office of Inspector General
Office of Personnel Management
1900 E Street, N.W., Room 6400
Washington, D.C. 20415

Dear Mr. Thorp:

        Enclosed is the Agreed-Upon Procedures Report for the Social Security
Administration on “Retirement, Health Benefits, and Life Insurance
Withholdings/Contributions And Supplemental Semiannual Headcount.” This report is
required by Appendix I of Office of Management and Budget (OMB) Bulletin 01-02,
Audit Requirements for Federal Financial Statements. The report was prepared by
KPMG LLP under contract with the Department of the Interior, Office of Inspector
General. The contract required that the audit be performed in accordance with United
States generally accepted government auditing standards, OMB Bulletin 01-02 and the
General Accounting Office /President’s Council on Integrity and Efficiency Financial
Audit Manual.

        In connection with the contract, we reviewed KPMG’s report and related
workpapers and inquired of their representatives. KPMG is responsible for the report and
for the conclusions expressed in the report. However, our review disclosed no instances
where KPMG did not comply, in all material respects, with United States generally
accepted government auditing standards.

      If you have any questions concerning this matter, please contact me at (202)
208-5512 or Mr. Curtis Crider, Director of Financial Audits, at (202) 208-5724.

                                            Sincerely,



                                            Roger La Rouche
                                            Assistant Inspector General
                                              for Audits

Enclosure
                                                                                                       ENCLOSURE

           Suite 2700
           707 Seventeenth Street
           Denver, CO 80202




                                                              Independent Accountants’ Report on the
                                                              Application of Agreed-Upon Procedures


The Inspector General
U.S. Office of Personnel Management:

We have performed the procedures enumerated in exhibit I, which were agreed to by the Inspector General,
Chief Financia l Officer, and the Associate Director for Retirement and Insurance of the U.S. Office of
Personnel Management (OPM), solely to assist OPM in evaluating the reliability of the employee
withholdings and employer contributions reported on the Social Security Administration (SSA) Reports of
Withholdings and Contributions for Retirement, Health Benefits, and Life Insurance for the payroll periods
ended December 15, 2001; February 23, 2002, which coincided with the March Semiannual Headcount
Report; and June 1, 2002. SSA’s management is responsible for reporting withholdings and contributions
for retirement, health benefits, and life insurance, and for the related semiannual headcount reporting.
This agreed-upon procedures engagement was conducted in accordance with the attestation standards
established by the American Institute of Certified Public Accountants. The sufficiency of these procedures
is solely the responsibility of the Inspector General, Chief Financial Officer, and the Associate Director for
Retirement and Insurance of OPM. Consequently, we make no representation regarding the sufficiency of
the procedures described in exhibit I, either for the purpose for which this report has been requested or for
any other purpose. The procedures we performed and the associated findings are presented in exhibit I.
We were not engaged to, and did not, conduct an examination, the objective of which would be the
expression of an opinion on the employee withholdings and employer contributions reported in the SSA
Reports of Withholdings and Contributions for Retirement, Health Benefits, and Life Insurance, and the
March Semiannual Headcount Report. Accordingly, we do not express such an opinion. Had we performed
additional procedures, other matters might have come to our attention that would have been reported to
you.
This report is intended solely for the use of the Inspector General, Chief Financial Officer, and the
Associate Director for Retirement and Insurance of OPM and should not be used by those who have not
agreed to the procedures and taken responsibility for the sufficiency of the procedures for their purposes.




October 25, 2002
cc:    Chief Financial Officer, OPM
       Associate Director for Retirement and Insurance, OPM



           KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
           a member of KPMG International, a Swiss association.
                                                                                                        Exhibit I
                           Attachment to the Independent Accountants’ Report on the
                                       Application of Agreed-Upon Procedures
                         Submitted to the United States Office of Personnel Management
                                     for the Social Security Administration


Procedures and Findings
1. We obtained the Social Security Administration’s (SSA) March Semiannual Headcount Report submitted to
   the United States Office of Personnel Management (OPM) and a summary of Retirement and Insurance
   Transfer System (RITS) submissions for the fiscal year ended September 30, 2002. We judgmentally
   selected the following three RITS submissions from the summary of RITS submissions, calculated the total
   of the amounts as reported on the RITS submissions and compared the results of the calculated amounts to
   the corresponding amounts reported on the RITS submissions.

                                       Payroll
                                       period
                                       number              Payroll period ended

                                       200126            December 15, 2001
                                       200205            February 23, 2002 1
                                       200212            June 1, 2002

      Finding: We found such amounts to be in agreement.

2. We obtained the Federal Personnel/Payroll System (FPPS) Payroll Summary Reports associated with the
   three RITS submissions noted above, calculated the total of the amounts on the Payroll Summary Reports,
   and compared the results of the calculated amounts to the corresponding amounts reported on the Payroll
   Summary Reports.

      Finding: We found such amounts to be in agreement.
3. We compared the employee withholding information shown on the Payroll Summary Reports for retirement,
   health benefits, and life insurance (as adjusted for reconciling items) to the related amounts shown on the
   RITS submissions for the payroll periods noted above. We obtained explanations from management for
   those differences above 1% of the total amounts reported for retirement, health benefits, and life insurance.
      Finding: We identified differences over the 1% threshold between the RITS submissions and the Payroll
      Summary Reports for the three payroll periods noted above, and obtained explanations from the National
      Business Center (NBC) regarding the reasons for the differences, as presented in schedule A. We were told
      that the differences noted relate to military service employees who are withdrawing a portion of their
      retirement and repaying it at a later date. No additional procedures were performed with respect to the
      validity of the reconciling items on the Payroll Summary Reports. In addition, no additional procedures were
      performed with respect to management’s representations as to the reasons for the differences.




1
    This RITS submission coincides with the March Semiannual Headcount Report.


                                                            2                                          (Continued)
4. We randomly selected 25 employees from the Payroll Summary Reports for each of the RITS submissions
   selected above (hereinafter referred to as schedule B) that met all the following criteria:

   •   Covered by the Civil Service Retirement System (CSRS) or the Federal Employees Retirement System
       (FERS);
   •   Enrolled in the Federal Employees Health Benefits Program;
   •   Covered by basic life insurance; and
   •   Covered by at least one Federal Employees Group Life Insurance (FEGLI) optional coverage (Option A,
       B, or C).
5. We obtained, for each of the employees listed in schedule B, certified copies of the following documents
   from the Official Personnel File (OPF):

   •   All Notifications of Personnel Actions (SF-50) covering the pay periods in the RITS submissions chosen;
   •   The Health Benefit Registration Form (SF-2809) covering the pay periods in the RITS submissions
       chosen (note: a new SF-2809 is only needed if an employee is changing health benefit plans; therefore,
       the form could be several years old); and
   •   The Life Insurance Election Form (SF-2817) covering the pay periods in the RITS submission chosen
       (note: a new SF-2817 is only needed if an employee is changing life insurance coverage, therefore, the
       form could be several years old).
6. We obtained a report from Employee Express for individuals noted in schedule B that used Employee
   Express during one of the three pay periods selected for any health benefit transactions in that system. We
   compared the date of the transactions with the date on the certified copy of the SF-2809 requested in step 5,
   and confirmed that the health benefit information used in step 10 covered the pay periods in the RITS
   submissions chosen.
   Finding: No exceptions were found as a result of applying the procedure. No additional procedures were
   performed with respect to the validity of the health benefit transactions obtained from the Employee Express
   report.
7. For each of the employees selected in schedule B, we compared the base salary used for payroll purposes
   (upon which withholdings and contributions are based) from the employee Leave and Earnings Statement to
   the base salary reflected on the employees’ respective SF-50.

    Finding: We found such information to be in agreement.
8. For each of the employees selected in schedule B, we compared the retirement plan code used for payroll
   purposes, as noted on the employee Leave and Earnings Statement, to the SF-50.

    Finding: We found such information to be in agreement.
9. For each of the employees selected in schedule B, we computed employee withholdings and the SSA’s
   contributions by multiplying the base salary (obtained from the employees’ SF-50) by the official
   withholding and contribution rates, which were obtained from the enabling legislation. We compared the
   calculated withholding and contribution amounts to the actual amounts on the employee Leave and Earning
   Statements.

   Finding: We found such amounts to be in agreement.
10. For each of the employees selected in schedule B, we compared the health benefit rates for employee
    withholdings and SSA contributions from the employee Leave and Earnings Statement to the official
    subscription rates issued by OPM for the plan and option elected by each of the employees, as documented
    by a Health Benefit Registration Form (SF-2809) in the employees’ OPF.

                                                       3                                             (Continued)
    Finding: We found such information to be in agreement.
11. For each of the employees selected in schedule B, we inspected the Life Insurance Election Form (SF-2817)
    obtained from the employees’ OPFs for basic life insurance election, and noted that each of the employees
    elected basic life insurance.

    Finding: No exceptions were found as a result of applying the procedure.
12. For each of the employees selected in schedule B, we computed the withholding and contribution amounts
    for basic life insurance, as follows, and compared the calculated amounts to the actual amounts withheld and
    contributed from the employee Leave and Earnings Statement.
    a) For employee withholdings: We rounded the employee's annual base salary to the nearest thousand
       dollars and added $2,000. Then, we divided this total by $1,000 and multiplied it by $0.155.

    b) For agency contributions: We divided the employee withholdings calculated in step 12.a. by two.

    Finding: We found such amounts to be in agreement.
13. For each of the employees selected in schedule B, we inspected the SF-2817 form obtained from the
    employees’ OPF and verified that optional coverage was elected. We computed the optional coverage
    withholdings and contributions and compared our calculated totals to the withholdings and contributions on
    the employee Leave and Earnings Statement, as follows, based upon the options selected by each employee:

    a. For Option A: We determined the employee’s age group using the age groups provided for Option A in
       the FEGLI Program Booklet. The withholding amount used is based on the rate listed in the FEGLI
       Program Booklet for that age group.
    b. For Option B: We inspected the SF-2817 to determine the number of multiples chosen for Option B and
       determined the employee’s age group using the age groups provided for Option B in the FEGLI Program
       Booklet. We rounded the employee’s annual rate of basic pay up to the next $1,000, divided it by $1,000,
       and multiplied it by the rate for the respective age group. We computed the amount withheld by
       multiplying above calculated amount by the number of multiples chosen.
    c. For Option C: We inspected the SF-2817 to determine the number of multiples chosen for Option C and
       determined the employee’s age group using the age groups provided for Option C in the FEGLI Program
       Booklet. We computed the amount withheld by multiplying the rate for the age group by the number of
       multiples chosen.
    Finding: We found such amounts to be in agreement, with one exception. The employee whose social
    security number ends in 8979 in SPO 2, as shown in schedule B, elected Options A, B, and C per FEGLI ’99
    Open Enrollment Period Election Form dated June 30, 1999. The employee’s SF-50 dated January 13, 2002
    shows elections for Options A and B only. The table below shows the FEGLI deduction per the employee’s
    Leave and Earnings Statements for the pay periods noted and the calculated deduction based on employee’s
    Options A, B and C elections, basic pay, age, and multiples per the FEGLI Program Booklet:
                                           FEGLI
                                       deduction per
                     Payroll             leave and           Calculated
                      period              earnings            FEGLI
                     number              statement           deduction          Difference
                      200126       $       13.84               14.44               (0.60)
                      200205               14.44               15.04               (0.60)
                      200212               14.44               15.04               (0.60)

                                                       4                                             (Continued)
14. We randomly selected ten employees from the Payroll Summary Reports who had no health benefit
    withholdings, noted in schedule C. For each of the ten employees selected, we obtained form SF- 2809 from
    the OPFs and inspected the form, noting that there was no health benefit coverage election.
   Finding: No exceptions were found as a result of applying the procedure.

15. We randomly selected ten employees from the Payroll Summary Reports who had no life insurance
    withholdings, noted in schedule D. For each of the ten employees selected, we obtained form SF-2817 from
    the OPFs and inspected the form, noting that the employee waived or cancelled basic life insurance coverage.
   Finding: No exceptions were found as a result of applying the procedure.

16. We calcula ted the headcount by obtaining the number of employees from the Payroll Summary Report as of
    February 23, 2002. We compared our calculated headcount with the headcount from the March Semiannual
    Headcount Report, and identified any differences greater than 2% between the headcount reporting on the
    SSA Semiannual Headcount Report and the Payroll Summary Report.
   Finding: All differences noted were less than 2% of the headcount reflected on the March Semiannual
   Headcount Report.
17. We calculated retirement employee withholdings and employer contributions for the three payroll periods
    noted above, by multiplying the CSRS and FERS payroll base obtained from the FPPS payroll queries
    provided by the NBC, by the withholding and employer contribution rates required by law. We compared the
    calculated totals to the amounts shown on the RITS submissions and identified any variances between the
    calculated totals and the amounts reported on the RITS submissions greater than 5% of the amounts reported
    on the RITS submissions.
   Finding: All variances noted were less than 5% of the amounts reported on the RITS submissions. No
   additional procedures were performed with respect to the validity of the queries provided by the NBC.
18. We calculated the health benefit employee withholdings and employer contributions for the three payroll
    periods noted above, by multiplying the number of employees enrolled in each health benefit plan and plan
    option from the RITS submissions by the employee withholdings and employer contributions for the pla n
    and option from the FPPS payroll queries provided by the NBC. We compared the calculated amounts to the
    health benefit withholding and contribution amounts shown on the RITS submissions and identified any
    variances between the calculated totals and the amounts reported on the RITS submissions greater than 5%
    of the amounts reported on the RITS submissions.
   Finding: All variances between the calculated amounts and the amounts reported on the RITS submissions
   greater than 5% are reported in schedule E. We were told that the variances noted relate to one-time pay
   adjustments. No additional procedures were performed with respect to the validity of the queries provided by
   the NBC. In addition, no additional procedures were performed with respect to management’s representation
   as to the reasons for the variances.
19. We calculated the basic life insurance employee withholdings for the three payroll periods noted above, by
    obtaining payroll system queries from the NBC to determine the total number of employees with basic life
    insurance program coverage and the aggregate annual basic pay for all employees with basic life insurance
    program coverage. For employee withholdings we added the product of 2,000 times the number of
    employees with basic life insurance coverage to the aggregate annual basic pay for all employees selected.
    We divided this total by $1,000 and multiplied by $0.155. We compared these results to withholding
    amounts for basic life insurance coverage reported on the RITS submissions, and identified any variances
    between the calculated totals and the amounts reported on the RITS submissions greater than 5% of the
    amounts reported on the RITS submissions.


                                                       5                                            (Continued)
    Finding: All variances noted were less than 5% of the amounts reported on the RITS submissions. No
    additional procedures were performed with respect to the validity of the payroll system queries provided by
    the NBC.
20. We calculated the basic life insurance employer contributions for the three payroll periods noted above, by
    obtaining payroll system queries from the NBC to determine the total number of employees with basic life
    insurance program coverage and the aggregate annual basic pay for all employees with basic life insurance
    program coverage, and dividing the results of the employee withholdings calculated in step 19 by two. We
    compared these results to the amounts reported on the RITS submissions and identified any variances
    between the calculated totals and the amounts reported on the RITS submissions greater than 5% of the
    amounts reported on the RITS submissions.
    Finding: All variances noted were less than 5% of the amounts reported on the RITS submissions. No
    additional procedures were performed with respect to the validity of the payroll system queries provided by
    the NBC.
21. We obtained a payroll system query from the NBC that summarized the number of employees, by age group,
    who elected Options A, B, and C during the payroll periods noted above. We calculated Option A, Option B,
    and Option C of the life insurance coverage withholdings for the three payroll periods noted above using the
    Payroll Summary Reports obtained from NBC by multiplying the number of employees in each age group by
    the appropriate rate for Option A, in accordance with the rates for age groups provided in the FEGLI
    Program Booklet. We compared these results to the amounts reported on the RITS submissions, and
    identified any differences between calculated totals and the amounts reported on the RITS submissions
    greater than 2% of the amounts reported on the RITS submissions.

   Finding: All differences noted were less than 2% of the amounts reported on the RITS submissions. No
   additional procedures were performed with respect to the validity of the payroll system queries provided by
   the NBC.
22. We obtained a payroll system query from the NBC that summarized Option B and Option C insurance. We
    divided the reports for Option B and Option C insurance into the age groups shown in the FEGLI Program
    Booklet. For Option B, we rounded the employee’s annual rate of basic pay up to the next $1,000, divided by
    $1,000, multiplied by the rate for the age group and multiplied this total by the number of multiples. For
    Option C, we multiplied the rate for the age group by the number of multiples chosen for each employee,
    compared these results to the amounts reported on the RITS submissions for Options B and/or C, and
    identified any differences between the calculated totals and the amounts reported on the RITS submissions
    for Options B and/or C greater than 2% of the amounts reported on the RITS submissions for Options B
    and/or C.

   Finding: All differences noted were less than 2% of the amounts reported on the RITS submissions for
   Options B and/or C. No additional procedures were performed with respect to the validity of the payroll
   system queries provided by the NBC.




                                                       6
                                                                                                                                    Schedule A
                                                     SOCIAL SECURITY ADMINISTRATION
                                                  RITS Submission to Payroll Summary Reconciliation
                                      Payroll periods ended December 15, 2001, February 23, 2002, and June 1, 2002


                                                                                                Amount per
                                                                                                  payroll
                                                                                 Amount per      summary                            Percent
Payroll period                        Employee line item                           RITS           report             Difference    difference
    200126         Military Service                                      $          12,930.63        8,669.73           4,260.90      49.147%
    200205         Military Service                                                 24,006.10       10,090.58          13,915.52     137.906%
    200212         Military Service                                                 16,296.72        9,888.94           6,407.78      64.797%


See independent accountants’ report on the application of agreed-upon procedures.




                                                                             7
                                                                                         Schedule B
                                 SOCIAL SECURITY ADMINISTRATION
                       Employees With Retirement, Health Insurance, and Life Insurance


                                                  Last four
                                                   digits of
                                                social security
                             Sample Item           number                SPO
                                    1                1006                  2
                                    2                9244                  2
                                    3                8979                  2
                                    4                9009                  2
                                    5                9490                  2
                                    6                0567                  2
                                    7                2254                  4
                                    8                5457                  4
                                    9                9786                  6
                                   10                5440                  6
                                   11                3404                  9
                                   12                1245                 13
                                   13                8029                 13
                                   14                0698                 13
                                   15                1630                 13
                                   16                9079                 18
                                   17                6568                 27
                                   18                2229                 27
                                   19                8730                 29
                                   20                3680                 31
                                   21                8376                 43
                                   22                3994                 54
                                   23                4718                 54
                                   24                9163                 54
                                   25                9427                 68


See independent accountants’ report on the application of agreed-upon procedures.




                                                       8
                                                                                    Schedule C
                                 SOCIAL SECURITY ADMINISTRATION
                                     Employees With No Health Insurance


                                                  Last four
                                                   digits of
                                                social security
                             Sample Item           number                SPO
                                    1                4907                 31
                                    2                0343                 31
                                    3                8723                 13
                                    4                2177                 47
                                    5                0990                 54
                                    6                8744                 11
                                    7                7264                 54
                                    8                1122                  9
                                    9                2536                 31
                                   10                6515                  9


See independent accountants’ report on the application of agreed-upon procedures.




                                                       9
                                                                                    Schedule D
                                 SOCIAL SECURITY ADMINISTRATION
                                        Employees With No Life Insurance


                                                   Last four
                                                    digits of
                                                 social security
                             Sample Item            number               SPO
                                    1                8449                   4
                                    2                1084                   6
                                    3                4756                   6
                                    4                9358                  54
                                    5                6930                   6
                                    6                4008                   4
                                    7                2639                   6
                                    8                5500                   6
                                    9                9931                  11
                                   10                5033                  31


See independent accountants’ report on the application of agreed-upon procedures.




                                                      10
                                                                                                  Schedule E
                                            SOCIAL SECURITY ADMINISTRATION
                                       Variances Exceeding 5% – Health Insurance Contributions
                                             Calculated Amount Versus RITS Submission


                                           Payroll          Enrollment              Percent
                                           period              code                 variance
                                           200126               321                       5.21%
                                           200126               534                     16.67%
                                           200126               535                   (24.92)%
                                           200126               5E1                     20.31%
                                           200126               5E2                   (12.82)%
                                           200126               7D1                     12.19%
                                           200126               7D2                     (5.79)%
                                           200126               D42                     (6.38)%
                                           200126               DF2                     11.22%
                                           200126               EC2                     12.00%
                                           200126               JB2                  (100.00)%
                                           200126               L41                       7.04%
                                           200126               LN1                     11.11%
                                           200126               PX2                     12.35%
                                           200126               SJ2                     35.91%
                                           200126               XM1                    166.67%
                                           200205               101                  (566.60)%
                                           200205               102                   (14.00)%
                                           200205               171                       7.15%
                                           200205               261                     12.08%
                                           200205               262                     (6.98)%
                                           200205               315                     15.24%
                                           200205               542                       5.55%
                                           200205               571                   (32.73)%
                                           200205               572                     45.87%
                                           200205               691                  (100.00)%
                                           200205               692                  (100.00)%
                                           200205               6F1                   (83.33)%
                                           200205               6W1                  (180.37)%
                                           200205               7L2                    180.63%
                                           200205               9K1                     28.45%
                                           200205               EQ1                  (135.22)%
                                           200205               EQ2                  (300.00)%
                                           200205               IN1                   (15.63)%
                                           200205               KL2                  (122.22)%
                                           200205               LD2                  (255.56)%
                                           200205               Q81                     15.27%
                                           200205               SU1                  (100.00)%
                                           200205               SU2                  (100.00)%
                                           200205               UB2                   (13.44)%
                                           200205               UK2                  (169.05)%
                                           200212               472                       5.26%
                                           200212               511                       5.22%
                                           200212               571                   (14.04)%
                                           200212               572                     13.24%
                                           200212               2F2                  (100.00)%
                                           200212               2U1                       7.02%
                                           200212               3N2                   (82.45)%
                                           200212               8X1                  (100.00)%
                                           200212               K72                  (100.00)%
                                           200212               KA1                   (10.31)%
                                           200212               KA2                     11.51%


See independent accountants’ report on the application of agreed-upon procedures.

                                                                    11
